Audit of USAID/Honduras’
Recipient Audit Inventory

Audit Report No. 1-522-02-003-P

November 13, 2001




       Regional Inspector General / San Salvador
U.S. A GENCY FOR
INTERNATIONAL
 DEVELOPMENT

RIG/San Salvador


November 13, 2001


MEMORANDUM

FOR:               USAID/Honduras Director, Timothy M. Mahoney

FROM:              Regional Inspector General, Timothy E. Cox

SUBJECT:           Audit of USAID/Honduras’ Recipient Audit Inventory (Report No.
                   1-522-02-003-P)

This is our final report on the subject audit. In finalizing the audit report, we
considered your comments on the draft report, which are included in their entirety
in Appendix II.

This report includes two recommendations for your action. Final action has been
taken on Recommendation No. 1 and on parts 2.2 and 2.3 of Recommendation
No. 2. A management decision has been made for parts 2.1 and 2.4 of
Recommendation No. 2. A determination of final action will be made by the
Office of Management Planning and Innovation when planned actions for parts
2.1 and 2.4 of Recommendation No. 2 have been completely implemented.

I appreciate the assistance and cooperation provided to the audit staff on this
assignment.




                                                                                  1
Table of   Summary of Results                                                3
Contents

           Background                                                        3


           Audit Objective                                                   4


           Audit Findings                                                    4


                  Is USAID/Honduras’ audit inventory complete and
                  accurate, and were the required audits done in a timely
                  manner?                                                    4


                            Information in the Audit
                            Inventory Could Be Improved                      5


                            Required Audits Were Not
                            Submitted in a Timely Manner                     5


           Management Comments and Our Evaluation                            7


           Appendix I – Scope and Methodology                                8


           Appendix II – Management Comments                                11




                                                                              2
Summary of   The Regional Inspector General/San Salvador performed an audit to determine
Results      whether USAID/Honduras’ audit inventory was complete and accurate and
             required audits were done in a timely manner (page 4).

             USAID/Honduras developed a complete audit inventory for fiscal year 2001.
             However, the audit inventory included some inaccurate information: 26 of 42 line
             items tested, or 31 of 302 specific data elements tested, had incorrect information.
             Required audits were not done in a timely manner: of the 14 planned audits in the
             fiscal year 2000 audit inventory, due to be submitted no later than September 30,
             2000, four audit reports were submitted late, and the other 10 audit reports had not
             been submitted as of September 7, 2001, the end of our audit fieldwork (pages 4
             through 7). 1

             USAID/Honduras was in agreement with the findings and recommendations in
             this audit report (page 7).



Background   Financial audits of contracts and grants are a primary basis for effective
             management and control of USAID’s program expenditures. These audits are
             designed to provide USAID management reasonable assurance that transactions
             are properly recorded and accounted for; laws and regulations, and provisions of
             contract or grant agreements are complied with; and USAID-financed funds,
             property, and other assets are safeguarded against unauthorized use or disposition.

             In response to Congressional concerns, USAID has taken an active role in recent
             years using audits as a management tool to improve financial accountability of its
             programs. In May 1996, USAID issued Automated Directives System (ADS),
             Chapter 591 which, among other things, requires USAID missions to (1) establish
             an audit management plan; (2) maintain an audit inventory database; and (3) have
             audits done for non-U.S. grants, contracts, and cooperative agreements that meet
             the audit threshold. These audit requirements help ensure that USAID funds are
             used for agreed-upon purposes. Lack of adequate audit coverage constitutes an
             unacceptable risk because, without such audit coverage, financial accountability
             for program expenditures cannot be reasonably assured.

             In March 1998, the Office of Inspector General (OIG) issued Audit Report No.
             3-000-98-002-F on USAID missions’ roles in obtaining audits of their contracts,
             grants, and cooperative agreements. The report concluded that 11 of the 14

             1
               In assessing whether the audit inventory was complete and accurate, we used the fiscal year 2001
             audit inventory since it was the most recent one prepared by USAID/Honduras. In assessing
             whether the required audits were completed in a timely manner, we reviewed the audits listed in
             the fiscal year 2000 audit inventory since the audits listed in the fiscal year 2001 audit inventory
             were not yet due at the time of our audit.
                                                                                                                  3
                  USAID missions selected (on an USAID-wide basis) generally obtained audits of
                  their contracts, grants, and cooperative agreements as required by ADS Chapter
                  591. However, a significant number of required audits were not completed at 10
                  of the audited 14 USAID missions.

                  In May 1999, OIG management decided to verify the accuracy of USAID
                  missions’ recipient audit inventories worldwide over a period of three years
                  because the lack of audit coverage was perceived as a high-risk area.

                  Our audit covered $44 million in USAID/Honduras disbursements.



Audit Objective   As part of its fiscal year 2001 audit plan, the Regional Inspector General/San
                  Salvador performed an audit to answer the following question:

                  h      Is USAID/Honduras’ audit inventory complete and accurate, and were the
                         required audits done in a timely manner?

                  The audit scope and methodology is presented in Appendix I.



Audit Findings    Is USAID/Honduras’ audit inventory complete and accurate, and were the
                  required audits done in a timely manner?

                  USAID/Honduras developed a complete audit inventory for fiscal year 2001.
                  However, the audit inventory included some inaccurate information: 26 of 42 line
                  items tested, or 31 of 302 specific data elements tested, had incorrect information.
                  Required audits were not done in a timely manner: of the 14 planned audits in the
                  fiscal year 2000 audit plan, required to be submitted no later than September 30,
                  2000, four audit reports were submitted late and the other 10 audit reports had not
                  been submitted as of September 7, 2001, the end of our audit fieldwork.

                  The Mission took several actions to implement an audit management plan in
                  accordance with the requirements of ADS Chapter 591, which included:

                  •   establishing a Management Control Review Committee to monitor the status
                      of the Mission’s audit management plan and help ensure that its audit
                      responsibilities were met;

                  •   designating an Audit Management Officer and Audit Liaison (assistant to the
                      Audit Management Officer) to coordinate and monitor the Mission’s audit
                      management plan and follow up on implementation of recipient-contracted
                      audit recommendations;



                                                                                                    4
•   including the required audit clauses in its grants and contracts and budgeting
    funds for audits; and

•   maintaining an inventory of contracts, grants, and cooperative agreements
    requiring audits, and maintaining an audit plan to track such audits.

Information in the Audit
Inventory Could Be Improved

A review of the accuracy of the information in the audit inventory disclosed errors
in 26 of 42 line items tested, or 31 errors out of 302 specific data elements tested.
The errors generally pertained to an incorrect amount of the grant or cooperative
agreement, an incorrect organization type, or an incorrect expiration date. These
errors were due to data entry errors or use of a Mission Accounting and Control
System (MACS) report that was not suitable for determining award amounts. In
addition, Mission activity managers were not verifying the data in the audit
inventory as required. None of the errors we identified resulted in required audits
not being performed; however, incorrect information in the audit inventory could
potentially result in a required audit not being performed.

       Recommendation No. 1: We recommend that
       USAID/Honduras:

       1.1     prepare the audit inventory based on a Mission
               Accounting and Control System report that includes all
               award amounts and

       1.2     verify that data is entered correctly.

Required Audits Were Not
Submitted in a Timely Manner

Chapter 591 of USAID’s Automated Directives System (ADS) requires overseas
missions to establish an audit management plan to ensure complete audit coverage
of its non-U.S. grantees and contractors. In addition, Chapter 591 of the ADS and
USAID’s Guidelines for Financial Audits Contracted by Foreign Recipients state
that reports resulting from these audits are to be submitted to the cognizant Office
of Inspector General (OIG) audit office within nine months after the end of the
recipient’s fiscal year for review and release by the OIG.

USAID/Honduras’ fiscal year 2000 audit inventory identified 14 audits that
should have been submitted to the Regional Inspector General/San Salvador
during fiscal year 2000. None of the 14 audit reports were submitted to the
Regional Inspector General/San Salvador within the required nine-month
timeframe. Four audit reports were submitted late and 10 audit reports still had
not been submitted by the end of our audit fieldwork on September 7, 2001.


                                                                                     5
There were several reasons why the audit reports were submitted late:

•   Heavy audit workload associated with the $293 million Hurricane Mitch
    emergency reconstruction program in Honduras made it harder for Mission
    staff to take timely actions to ensure adequate audit coverage of the Mission’s
    ongoing (non-emergency) program.

•   Similarly, workload associated with the emergency reconstruction program
    severely taxed the capabilities of the Controller General of the Republic of
    Honduras and some local public accounting firms. This meant that, in many
    cases, it took them much longer than expected to perform the required audits.

•   Mission staff gave priority to following up on existing audit recommendations
    in preference to initiating new audits. Controller’s Office staff stated that they
    frequently had to take the lead in following up on audit recommendations,
    even though the ADS assigns activity managers the lead responsibility for
    audit recommendation follow up.

Because required audits were not completed or submitted to the Regional
Inspector General/San Salvador in a timely manner, USAID/Honduras did not
have adequate assurance that audits of non-U.S. recipients were conducted in
accordance with USAID requirements and audit recommendations were tracked
in USAID's Consolidated Audit Tracking System.

       Recommendation No. 2: We recommend that
       USAID/Honduras:

       2.1     provide all past-due audit reports to the Regional
               Inspector General/San Salvador;

       2.2     assign sufficient staff to carry out the Mission’s audit
               responsibilities;

       2.3     make use of alternate sources of audit services (such as
               public accounting firms in other Central American
               countries, the Defense Contract Audit Agency, or U.S.
               public accounting firms) when local public accounting
               firms or the Controller General of the Republic are
               unable to provide satisfactory and timely audit services;

       2.4     in the Mission’s internal control assessment for fiscal
               year 2001, rate as unsatisfactory the control technique
               “An audit management plan is in place and annual
               audits are conducted, where required, of non-U.S.
               organizations awarded direct contracts and grants, and
               host-country owned local currency accounts” until all


                                                                                    6
                                the past due audit reports are submitted to the Regional
                                Inspector General/San Salvador.



Management     USAID/Honduras was in agreement with the findings and recommendations in
Comments and this report.
Our Evaluation
                  In response to Recommendation No. 1, USAID/Honduras prepared a new audit
                  inventory and verified the information contained in the audit inventory.

                  In response to part 2.1 of Recommendation No. 2, USAID/Honduras has
                  requested recipients to submit past due audit reports. In response to part 2.2 of
                  Recommendation No. 2, USAID/Honduras an existing Financial Management
                  Support Advisor has been assigned as the Controller’s special assistant for
                  coordinating and monitoring all audit matters. All other Financial Management
                  Support Advisors within the Office of Financial Management have been
                  instructed to work with program managers and Contract Technical Officers to
                  carry out the audit management plan. Furthermore, through the Management
                  Control Review Committee, USAID/Honduras is ensuring the active participation
                  of Strategic Objective Team Leaders and Office Directors in the audit planning,
                  review, and closure process. With respect to part 2.3 of Recommendation No. 2,
                  USAID/Honduras is considering other sources of audit services. All fiscal year
                  2001 audits have already been contracted, but if any critical problems arise in
                  completing these audits, USAID/Honduras will contract audit services from
                  outside Honduras. In response to part 2.4 of Recommendation No. 2,
                  USAID/Honduras has listed the audit management program in a listing of
                  concerns for follow-up from the fiscal year 2001 management control assessment.

                  Based on the above, final action has been taken on Recommendation No. 1 and
                  parts 2.2 and 2.3 of Recommendation No. 2, and these recommendations are
                  closed upon issuance of this audit report. Management decisions have been made
                  for parts 2.1 and 2.4 of Recommendation No. 2.




                                                                                                 7
                                                                                     Appendix I


Scope and     Scope
Methodology
              The audit was performed in accordance with generally accepted government
              auditing standards and assessed (1) whether USAID/Honduras’ audit inventory
              for fiscal year 2001 was complete and accurate, and (2) whether required audits
              for fiscal year 2000 were done in a timely manner. In assessing whether the
              audit inventory was complete and accurate, we used the fiscal year 2001 audit
              inventory since it was the most recent one prepared by USAID/Honduras. In
              assessing whether the required audits were completed in a timely manner, we
              reviewed the audits listed in the fiscal year 2000 audit inventory since the audits
              listed in the fiscal year 2001 audit inventory were not yet due at the time of our
              audit.

              Fieldwork was performed at USAID/Honduras from September 4, 2001 through
              September 7, 2001. The audit covered a total of $44 million in USAID funds.

              The scope of this audit was limited to audits contracted by recipients under
              USAID/Honduras’ ongoing, non-emergency program. It excluded audits
              contracted by recipients under the Hurricane Mitch emergency reconstruction
              program because the OIG was closely involved in helping to arrange and monitor
              the performance of audits under the emergency reconstruction program.

              We did not audit the accuracy of the information in the Mission’s MACS
              database system because of time constraints and because it was not directly
              relevant to our audit objective.

              We obtained an understanding of the management controls related to the audit
              objective and assessed risk and control effectiveness. The specific control
              techniques reviewed were: assignment of an Audit Management Officer and
              Audit Liaison, assignment of audit-related work objectives to the Audit
              Management Officer and Audit Liaison, preparation of an audit inventory and
              audit management plan which is updated quarterly, and Management Control and
              Review Committee (MCRC) review of the audit inventory.

              The audit scope included reviewing the Mission’s audit inventory and related
              documents; making comparisons between the information in the audit inventory,
              the Mission’s accounting system (MACS), and the contracts and grants
              themselves; reviewing audit reports and related information on file in the Office
              of the Regional Inspector General/San Salvador; and interviewing cognizant
              Mission officials.

              We also determined the status of prior audit recommendations from the audit
              report entitled Audit of Arrangements for Audit Coverage of USAID/Honduras’
              Assistance Portfolio (Audit Report No. 1-522-99-010-P, September 27, 1999)
              issued by the Regional Inspector General/San Salvador.
                                                                                                    8
                                                                      Appendix I


The audit criteria was principally comprised of Chapter 591 of the ADS and the
OIG’s “Guidelines for Financial Audits Contracted by Foreign Recipients,”
revised in July 1998.

Methodology

To assess whether the audit inventory was complete and accurate, we obtained
the fiscal year 2001 audit inventory and tested a sample of data elements in the
audit inventory by performing comparisons between the information in the audit
inventory, the Mission’s accounting system (MACS), and the contracts and
grants themselves. We considered inaccuracies or omissions affecting 5 percent
or more of the cases reviewed to be significant and reportable. (This threshold
reflects our judgments about the level of performance that is reasonable and
attainable for this part of the audit objective.) More specifically:

•   To test the completeness of the audit inventory, we requested a query report
    listing all of the agreements in the MACS system, verified the criteria used to
    prepare the query report, and verified that all of the agreements in the MACS
    system were included in the audit inventory. We also obtained a listing of all
    awards processed by the Mission’s contracts office and verified that all
    awards under the Mission’s on-going, non-emergency program were included
    in the audit inventory.

•   To test the accuracy of the information in the audit inventory, we randomly
    sampled 42 of 60 awards listed in the audit inventory. For these awards, we
    traced all data elements (302 data elements in total) for the 42 awards to
    supporting documents or information in the MACS system. The sampling
    method used provides a confidence level of 95 percent and precision of plus
    or minus 5 percent.

To determine whether required audits for fiscal year 2000 were done in a timely
manner, we obtained the fiscal year 2000 audit inventory and reviewed audit
reports and related records in the Office of the Regional Inspector General/San
Salvador to see whether required audits listed in the audit inventory were
submitted to the OIG and if so, when. We considered error rates of 10 percent or
more to be significant and reportable. (This threshold reflects our judgments
about the level of performance that is reasonable and attainable for this part of
the audit objective.)




                                                                                   9
                                                                                                   Appendix II




                                                                                      USAID/HONOURAS
                                                                                      MEMORANDUM
 Management Comments


 DATE: November 3, 2001

 TO: Tim Cox. RIG/SS

 FROM: Timothy Mahoney, Mission Director

  SUBJECT: DRAFT AUDIT REPORTS No 1422-02-xxx-P Audit of USAID/Honduras’ Recipient Audit
Inventory


 This memorandum represents IJSAID/Honduras (USAID/H) comments to the actions taken to implement the
 recommendations contained therein.

 I.      Recommendation No. 1: We recommend that USAID/Honduras:

 1.1   Prepare the audit inventory based on a Mission Accounting and Control System report that includes all
 commitments amounts and

 1.2     Verity that the data is entered correctly.

 Comments and Actions Completed

 The Mission has prepared a new audit inventory (annex A), based on Mission Accounting Control Systems
 (MACB) 10 reports developed by the accounting section. All commitment amounts, commitment numbers, Stan
 and ending dates as well as type of organization has been verified against original source documents in the
 Office of Financial and Contracts Management (OFM and 0CM) within USAIO/H,

 Based on the above~comp1eted actions, Mission requests RIB/SE concurrence with its management decision and
 closure of this recommendation upon issuance of the audit report in final form,

 II. Recommendation No. 2: We recommend that USAID/Honduras:

 2.1     Provide all past-due audit reports to the Regional Inspector General San Salvador;

 2.2     Assign sufficient staff to carry out the mission’s audit responsibilities;

 2.3     Make use of alternate sources of the audit services (such as public accounting firms with other Central
 American countries, the Defense Contract Audit Agency, or U.S. public accounting firms) when local public
 accounting firms or the Controller General of the Republic are unable to provide satisfactory and timely audit
 services;



                                                                                                                   10
                                                                                                   Appendix II

2.4     In the mission’s internal control assessment for fiscal year 2001, rate as unsatisfactory the control
technique “An audit management plan is in place and annual audits are conducted, where required, of non-U.S.
organizations awarded direct contacts and grants and host-county owned local currency accounts” until all past
due reports arc submitted to the Regional Inspector General/San Salvador.

Comments and Action taken and/or to be taken:

2.1      On September 13 and 14, 2001. the Mission requested in writing to the recipients with past due audits
the submission to all final draft reports NLT September 30, 2001, and advise them that if such audits were not
submitted by that date, costs incurred for such efforts could possibly not be recognized as allowable expenditures
under the respective agreement (Annex B). As a result of this action, we received draft reports and approved the
final issuance of 4 of them. Annex C shows status of all past-due audits.

2.2      Considering current Mission staff limitations, the CFMO has assigned an existing financial Management
Support Advisor (FMSA) as his special assistant for coordinating and monitoring all audit matters. In addition,
all other FMSAs within the Office of Financial Management (OFM) have been instructed to work closely with
program managers and CTO’s to endure effective implementation of the Agency’s Audit Management and
Resolution Program (AMRP), e.g. ensuring the quality of the audit inventory and audit reports, reporting
management decisions on time, and complete corrective actions to request closure of resulting recommendations.
Furthermore through the Management Control Review Committee (MCRC), the Mission is ensuring the active
participation of Strategic Objective Team (SOT) leaders and Office Directors in the audit planning, review and
closure process.

2.3      Before issuance of subject audit report, Mission did not have the authority to make use of alternate
sources of audit services Tom its regular program. However, due to the current limitation of the local audit firms
capabilities, Mission was already looking for other sources for the implementation of its FY2002 audit plan, and
scheduled a meeting with DCAA in October 2001. This meeting was postponed to November 2001 due to the
recent terrorist attacks on the U.S. All FY2001 planned audits have been contracted for, but if any critical
problems arise in their implementation, the Mission will contract audit services from outside Honduras.

2.4    Mission has placed the AMRP in the summary listing of concerns resulting from the Mission FY01
Management Control Assessment (MCA) for follow-up purposes until brought in line with the Agency’s
mandate (see Annex D). Actions described far section 2,1 above also apply to this section of the
recommendation,

Based on the above the Mission requests RIG/SS concurrence with its management decision for recommendation
No.2 and closure of sections 2.2 and 2.3 of the recommendation upon issuance of the final audit report. Closure
for sections 2.1 and 2.4 will be requested upon transmittal to RIG/SS of pending audit reports,

in closing, USAlD/Honduras would like to express its gratitude for the valuable information and useful
guidelines provided by RIG’s staff during the performance of subject audit.




                                                                                                                 11
